U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 7, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Virgil Nickens v. United States of America,
S.Ct. No. 20-5645

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 4,
2020, and placed on the docket on September 10, 2020. The government’s response is due on
October 13, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 12, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5645
NICKENS, VIRGIL
USA

MACKENZIE S. LUND
FEDERAL DEFENDERS, MIDDLE DISTRICT OF
ALABAMA
817 SOUTH COURT STREET
MONTGOMERY, AL 36104
334-834-2099
MACKENZIE_S_LUND@FD.ORG

